<html>
<title> - MARKUP OF: H.R. 634, ELECTION ASSISTANCE COMMISSION TERMINATION ACT; H.R. 133, TO REDUCE FEDERAL SPENDING AND THE DEFICIT BY TERMINATING TAXPAYER FINANCING OF PRESIDENTIAL ELECTION CAMPAIGNS; AND COMMITTEE RESOLUTION 115-4, THE COMMITTEE'S VIEWS AND ESTIMATES ON THE FISCAL YEAR 2018</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]



 

 MARKUP OF: H.R. 634, ELECTION ASSISTANCE COMMISSION TERMINATION ACT; 
  H.R. 133, TO REDUCE FEDERAL SPENDING AND THE DEFICIT BY TERMINATING 
 TAXPAYER FINANCING OF PRESIDENTIAL ELECTION CAMPAIGNS; AND COMMITTEE 
  RESOLUTION 115-4, THE COMMITTEE'S VIEWS AND ESTIMATES ON THE FISCAL 
                               YEAR 2018

=======================================================================


                                MARKUP

                               before the

                           COMMITTEE ON HOUSE
                             ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            FEBRUARY 7, 2017

                               __________

      Printed for the use of the Committee on House Administration




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







                       Available on the Internet:
   http://www.gpoaccess.gov/congress/house/administration/index.html
   
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

25-191                         WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001   
   
   
   
   
   
   
   
   
   
   
   
   
   
   
   
   
   
   
   
                   Committee on House Administration

                  GREGG HARPER, Mississippi, Chairman
RODNEY DAVIS, Illinois, Vice         ROBERT A. BRADY, Pennsylvania,
    Chairman                           Ranking Member
BARBARA COMSTOCK, Virginia           ZOE LOFGREN, California
MARK WALKER, North Carolina          JAMIE RASKIN, Maryland
ADRIAN SMITH, Nebraska
BARRY LOUDERMILK, Georgia

 
 MARKUP OF: H.R. 634, ELECTION ASSISTANCE COMMISSION TERMINATION ACT; 
  H.R. 133, TO REDUCE FEDERAL SPENDING AND THE DEFICIT BY TERMINATING 
 TAXPAYER FINANCING OF PRESIDENTIAL ELECTION CAMPAIGNS; AND COMMITTEE 
  RESOLUTION 115-4, THE COMMITTEE'S VIEWS AND ESTIMATES ON THE FISCAL 
                               YEAR 2018

                              ----------                              


                       TUESDAY, FEBRUARY 7, 2017

                          House of Representatives,
                         Committee on House Administration,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 11:55 a.m., in Room 
1310, Longworth House Office Building, Hon. Gregg Harper 
[Chairman of the Committee] presiding.
    Present: Representatives Harper, Davis, Comstock, Walker, 
Smith, Loudermilk, Brady, Lofgren, and Raskin.
    Staff Present: Sean Moran, Staff Director; Katie Patru, 
Deputy Staff Director for Outreach and Communications; Kim 
Betz, Senior Advisor; Cole Felder, Counsel; C. Maggie Moore, 
Legislative Clerk; Erin McCracken, Communications Director; Rob 
Taggart, Deputy Legislative Clerk/Oversight; Alex Attebery, 
Staff Assistant; Jamie Fleet, Minority Staff Director; Matt 
Pinkus, Minority Senior Policy Advisor; Khalil Abboud, Minority 
Chief Counsel; Eddie Flaherty, Minority Chief Clerk; and 
Meredith Connor, Minority Staff Assistant.
    The Chairman. I now call to order the Committee on House 
Administration for today's Committee meeting. A quorum is 
present so we may proceed. The meeting record will remain open 
for 5 legislative days so that Members may submit any materials 
that they wish to be included therein.
    There are three items that we have on our docket today. 
First, H.R. 634, eliminating the Election Assistance 
Commission; second, H.R. 133, eliminating the Presidential 
Election Campaign Fund; and, finally, Committee Resolution 115-
4, the Committee's Views and Estimates on the Fiscal Year 2018.
    Our first measure, H.R. 634, ends the Election Assistance 
Commission. H.R. 634 transfers the Election Assistance 
Commission's few remaining functions to the Federal Election 
Commission. It is my firm belief that the EAC has outlived its 
usefulness and purpose. When first created after the 2000 
election, the EAC was established to distribute money to States 
to upgrade voting machines and make improvements to election 
processes. Early on, the EAC distributed more than $3.1 billion 
to States for these purposes. However, over the last several 
years, the EAC has yet to receive additional funding. 
Notwithstanding the lack of resources, the temporary agency 
remains. Most of its functions have come to a close, and those 
remaining are easily transferable to the Federal Election 
Commission. Almost all of its mandated reports have been 
issued. The EAC's testing and certification program for voting 
machines is, for the most part, unused. For the past several 
years, the EAC has had so little substantive responsibility 
that it has spent more than half its budget on overhead 
expenses. It is time for the EAC to be officially ended.
    The next measure we will consider is H.R. 133, which 
eliminates the Presidential Election Campaign Fund altogether. 
In the 113th Congress, I introduced the Gabriella Miller Kids 
First Research Act. This important bill, which was later 
enacted, redirected millions of dollars in taxpayer money away 
from political parties' national conventions and put it toward 
enhancing pediatric research based upon collaboration. Today, 
we will consider H.R. 133, introduced by Representative Tom 
Cole, which eliminates the Presidential Election Campaign Fund 
altogether and uses it to return funds to supplement the 10-
year Pediatric Research Initiative Fund to fight childhood 
diseases and reduce the Federal deficit.
    In 2008, Barack Obama became the first candidate to reject 
the use of this funding for the general election, opting 
instead to use privately raised funds. Since then, no major 
primary candidate nor party Presidential nominee has accepted 
general election grants. It is clear that this fund is 
antiquated and no longer in step, with taxpayers making their 
own decisions to support a candidate. These funds can and 
should be used for a greater purpose.
    The last item before us is Committee Resolution 115-4, the 
Committee's Views and Estimates of the Fiscal Year 2018. The 
Congressional Budget Act of 1974 requires Congressional 
committees to submit to the Committee on the Budget their views 
and estimates of Federal programs that will have a significant 
budgetary impact. The Committee will continue its work to 
conduct oversight and identify future potential savings at the 
Federal Election Commission. One way to reduce the budget needs 
of the FEC is to eliminate the Presidential Election Campaign 
Fund, which will be accomplished by one of the measures before 
us today.
    Lastly, the Committee supports the House's work of 
coordinating cybersecurity practices and policies across the 
legislative branch. As an institution, we must work to be in 
step with today's technology and work hard to protect data that 
we rely on each and every day.
    I would now like to recognize my colleague and the 
Committee's Ranking Member, Mr. Brady, for the purpose of 
providing an opening statement.
    Mr. Brady.
    Mr. Brady. Thank you, Mr. Chairman.
    Mr. Chairman, despite its important mission, this is the 
latest of many repeated attempts to abolish the Election 
Assistance Commission. I have opposed these efforts in the 
past, and I oppose them again today. The EAC is the only 
Federal agency charged with making elections more fair, 
accurate, accessible, and efficient. Election administrators 
across the country faced extraordinary challenges during the 
2016 election when hackers tried to access voter registration 
database in more than 20 States. And the United States Senate 
Select Intelligence Committee recently launched a bipartisan 
investigation into foreign interference in the Presidential 
election. The EAC provided key support to States and 
municipalities facing these unprecedented difficulties, and 
they will continue to do so as they prepare for the next 
election. This is a time when we should be focusing on 
strengthening the only Federal agency charged with making 
elections work for all Americans, not trying to eliminate it. 
And I will also have an amendment to do just that.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Mr. Brady.
    I would now ask if any other Member of the Committee wishes 
to be recognized for the purpose of providing an opening 
statement. First, on the Republican side?
    Democratic side?
    Mr. Raskin. If I might. Thank you, Mr. Chairman.
    You know, most democratic countries on Earth have a Federal 
election commission, a national election commission, that 
oversees the integrity and the honesty of the vote count and 
deals with all of the manifold problems that present themselves 
in an election system. We have just the Federal Election 
Commission which is focused just on campaign finance and whose 
dysfunction is infamous. The Election Assistance Commission was 
an attempt to bring some modernization and focus to our 
electoral process. And so, you know, I would prefer if we went 
in the other direction and we doubled down on it and we really 
tried to deal with the repeated assaults on people's voting 
rights and the lack of uniformity and the chaos that often 
afflicts our elections.
    So, with that, I guess I will just say I am very open to 
listening to the critique of the Election Assistance 
Commission, and maybe there are things that we can do to reform 
it, to bolster it, to make it more effective. But I think that 
simply disbanding it at this point sends completely the wrong 
message about our commitment to integrity and uniformity in our 
elections.
    And I yield back. Thank you, Mr. Chair.
    The Chairman. Thank you, Mr. Raskin.
    Any other Members wish to be heard?
    I would now call up and lay before the Committee H.R. 634, 
a bill to eliminate the Election Assistance Commission.
    Without objection, the first reading is dispensed with, and 
the bill is considered read and open for amendment.
    [The bill follows:]
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
    
    The Chairman. Would any Member like to make a statement or 
an amendment?
    Mr. Brady.
    Mr. Brady. Yes, Mr. Chairman, I have an amendment in the 
nature of a substitute.
    [The amendment of Mr. Brady follows:]
    
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
    
    
    The Chairman. Okay.
    Mr. Brady. Again, thank you, Mr. Chairman.
    The EAC was created by my friend, our Democratic whip, 
Steny Hoyer. And on a bipartisan basis, after the 2000 
election, it has made significant progress toward improving 
elections administrations across the country over the past 15 
years. The EAC provides local and State election officials with 
best practices information and voting machine certifications 
and other critical support. Last year, the Commission's Be 
Ready `16 effort helped more than 8,000 independently operating 
election jurisdictions in the country prepare for election day. 
At a time when elections administrations are facing serious 
difficulties from threats from foreign hackers to outdated and 
failing voting machines, it is critical that the EAC is 
equipped with the tools it needs. That is why I urge my 
colleagues on this Committee to support this amendment to 
reauthorize the EAC until 2022. The amendment also provides 
necessary funding for requirements payments to States to be 
used for the upgrading of security of voter registration 
process and database and requires the EAC to undertake an 
assessment of its own cybersecurity and IT systems. These 
provisions will ensure that most States' Federal elections 
administrators are in the position to adequately guard against 
attempted foreign influence in our elections. The EAC needs 
reformed, not replaced. And my amendment does just that.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Mr. Brady.
    Are there any other Members who wish to be recognized on 
the offered amendment?
    Ms. Lofgren, you are recognized.
    Ms. Lofgren. I just want to speak in favor of Mr. Brady's 
amendment. You know, thinking back to the creation of the 
Election Assistance Commission, this wasn't a Democratic plan, 
and it wasn't a Republican plan. It was a bipartisan effort. 
Why? Because we all knew that there were problems with the 
administration of elections, and the election in 2000 was a 
mess. And rather than just worry about it, we worked together, 
Democrats and Republicans, to put together this Commission. 
Now, it is not perfect. And I think Mr. Brady's amendment does 
some important things to improve it. But to think that in light 
of the information we have received that databases are being 
attacked by Russia, that we have potential cyber holes in some 
of our voting systems, and at a time when some in politics are 
casting doubt on the integrity of the voting system itself, now 
is not the time to do away with the only entity at the Federal 
level that is obliged to try and secure the system itself. If 
not for an outcome, just for the integrity of the voting 
system. I think that Mr. Brady's amendment makes important 
improvements. But the important thing is it wouldn't eliminate 
the Election Assistance Commission. For the life of me, I 
really don't understand what the rush is, what the impetus is 
to eliminate instead of repair and reform this important 
effort. So I hope that we can support Mr. Brady's amendment and 
do so on a bipartisan basis as we did when the Commission 
itself was created.
    And, with that, I would yield back.
    The Chairman. Thank you, Ms. Lofgren.
    Are there any other Members who wish to be recognized on 
the offered amendment?
    Mr. Raskin. Mr. Chair.
    The Chairman. Mr. Raskin, you are recognized.
    Mr. Raskin. Mr. Chairman, thank you very much. I add my 
voice in support of the Ranking Member's amendment in the 
nature of a substitute. We have just come out of a Presidential 
election which has been roundly criticized on all sides for 
various inadequacies and problems that arose. Sixteen 
intelligence agencies of the United States, our entire 
intelligence community, issued a report demonstrating, at least 
to my satisfaction, that there was a deliberate campaign of 
cyber sabotage, espionage, fake news, and propaganda directed 
at the Presidential campaign by Vladimir Putin and agents of 
the Russian Government from Moscow. President Trump himself has 
said that there were 3 to 4 million fraudulent votes cast. And 
there have been criticisms in a number of the States of various 
legal changes that have taken place. Those changes actually 
took place in the context of the Supreme Court's 5-to-4 ruling 
in Shelby County v. Holder, which removed the heart of the 
Voting Rights Act by essentially emasculating the pre-clearance 
requirement, which had been in place for 50 years. So this was 
first Presidential election in a half century where we did not 
have the advanced protections of the Voting Rights Act for the 
pre-clearance of changes taking place at the State level. And 
so I think it would send a dangerous message to the people of 
the United States and to the world for us now to essentially 
abolish the only Federal agency we have tasked with looking at 
the problems in our election system. And I think that the 
Ranking Member's idea of reforming the Election Assistance 
Commission dealing with whatever problems have come up makes a 
lot more sense than simply scrapping it altogether.
    I yield back, thank you.
    The Chairman. Thank you, Mr. Raskin.
    Any other Members wishing to be heard on this amendment?
    Seeing none, the question is on the amendment offered to 
H.R. 634.
    All those in favor of this amendment, signify by saying 
aye.
    All those opposed, signify by saying nay.
    In the opinion of the chair, the nays have it, and the 
motion is not agreed to.
    Any other amendments?
    Mr. Brady. I request a recorded vote.
    The Chairman. A recorded vote has been requested. So the 
clerk will call the roll.
    The Clerk. Mr. Davis.
    Mr. Davis. Nay.
    The Clerk. Mr. Davis votes nay.
    Mrs. Comstock.
    Mrs. Comstock. Nay.
    The Clerk. Mrs. Comstock votes nay.
    Mr. Walker.
    Mr. Walker. Nay.
    The Clerk. Mr. Walker votes nay.
    Mr. Smith.
    Mr. Smith. Nay.
    The Clerk. Mr. Smith votes nay.
    Mr. Loudermilk.
    Mr. Loudermilk. Nay.
    The Clerk. Mr. Loudermilk votes nay.
    Mr. Brady.
    Mr. Brady. Aye.
    The Clerk. Mr. Brady votes aye.
    Ms. Lofgren.
    Ms. Lofgren. Yes.
    The Clerk. Ms. Lofgren votes aye.
    Mr. Raskin.
    Mr. Raskin. Aye.
    The Clerk. Mr. Raskin votes aye.
    Chairman Harper.
    The Chairman. No.
    The Clerk. Chairman Harper votes no.
    The ayes, three; noes, six.
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    The Chairman. The nays have it, and the amendment is not 
agreed to.
    Are there any other amendments?
    Ms. Lofgren is recognized for the purpose of presenting an 
amendment.
    Ms. Lofgren. Mr. Chairman, I have an amendment. As I have 
indicated earlier, I think it is a big mistake to eliminate----
    The Chairman. The amendment is considered as read.
    [The amendment of Ms. Lofgren follows:]
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

   
   
   
    Ms. Lofgren. Thank you--to eliminate the Commission itself. 
But if that is the intent of the majority, it seems that we 
should not do that at least until the EAC has provided--has 
completed a very important function, and that is administering 
the payments to States to allow them to upgrade their State 
voter registration databases and processes. This is a critical 
task and particularly in light of the attempted breaches of 20 
State voter registration databases last year. The EAC is the 
only Federal agency tasked with improving election 
administration. It is in a unique position to provide this 
important support to the States. And I think that, even if the 
majority believes the Commission should go away, this task 
needs to be completed first. You know, we are lucky in 
California. Our Secretary of State is also an electrical 
engineer and a computer savvy guy. He has really taken hold of 
this. But that is variable among the States.
    And to think that, although there is no evidence that the 
actual vote totals were tampered with by foreign aggressors, 
cyber aggressors, there is evidence of attempts to manipulate 
the voter registration database. It would be a mistake for us 
to think that you couldn't affect the outcome of an election in 
that way. And it could go either way. I mean, you could go and 
take a profile of individuals who are likely to vote Republican 
and mess with their registrations. Or, likewise, you could do 
the same thing to voters who are likely to vote Democrat. You 
could affect the impact--you could--the outcome of an election 
by manipulating the database. And so it is really, really 
important that all of the States have their database security 
in place. Some are ahead of others.
    But the EAC is in a key role to provide that assistance. So 
let's let them finish that. Even if you don't like--and I don't 
understand why--you don't like the other activities, it would 
really be a big, big mistake to eliminate this before that 
function is accomplished. So that is my amendment. I hope that 
we can agree to do this.
    With that, I would yield back.
    The Chairman. Thank you, Ms. Lofgren.
    Are there another other Members who wish to be heard on 
this amendment?
    Mr. Brady, you're recognized for 5 minutes.
    Mr. Brady. Mr. Chairman, I support Ms. Lofgren's amendment. 
We can't expect our local election officials to be 
cybersecurity experts, nor should they have to confront foreign 
governments trying to undermine our elections. This amendment 
supports them, and I hope that our colleagues will support it. 
Thank you.
    The Chairman. Thank you, Mr. Brady.
    Any other Members wishing to be heard on this?
    Mr. Raskin. Mr. Chair.
    The Chairman. Mr. Raskin, you are recognized for 5 minutes.
    Mr. Raskin. Thank you very much.
    I also support this and think it is absolutely essential if 
we are going to proceed with dissolving the Election Assistance 
Commission. Again, we all know the election that we just came 
out of. We know the findings of the intelligence agencies of 
the United States. We certainly don't want to turn a blind eye 
to the fact that there was cyber sabotage, cyber espionage, and 
an attempt to derail the electoral process of the world's first 
great democracy. And I think it is a very small concession on 
the part of the majority simply to say that we should upgrade 
the security of the States' voter registration lists and voter 
registration processes before we simply disband the whole 
process. And I hope that we would all be able to agree on a 
bipartisan basis that is something we can do.
    We have also learned that there continue to be a number of 
problems bedeviling the voter registration process. And this 
came out, of course, after the President asserted that there 
were millions of fraudulent votes cast. And turns out that 
there are lots of people affiliated with the Trump 
administration who are multiply registered in different States: 
Steve Bannon, Tiffany Trump, Sean Spicer, Jared Kushner, Steve 
Mnuchin. And that is not out of any act of malevolence on their 
part. It is simply because we are dealing with creaky and 
obsolescent systems that need to be reformed. And that was the 
whole genesis behind the Election Assistance Commission in the 
first place. They obviously have not finished their work in a 
number of areas. But certainly not in this most critical area. 
And I do hope that all of us would be able to support Ms. 
Lofgren's amendment.
    I yield back. Thank you.
    The Chairman. Thank you, Mr. Raskin.
    The question is now on the amendment offered by Ms. Lofgren 
to H.R. 634.
    All of those in favor of this amendment, signify by saying 
aye.
    All those opposed, signify by saying nay.
    In the opinion of the chair----
    Ms. Lofgren. Mr. Chairman, may I have a recorded vote?
    The Chairman [continuing]. And the motion is not agreed to.
    Ms. Lofgren. Could I have a recorded vote, please?
    The Chairman. There has been a recorded vote requested. So 
the clerk will call the roll.
    The Clerk. Mr. Davis.
    Mr. Davis. No.
    The Clerk. Mr. Davis votes no.
    Mrs. Comstock.
    Mrs. Comstock. No.
    The Clerk. Mrs. Comstock votes no.
    Mr. Walker.
    Mr. Walker. Nay.
    The Clerk. Mr. Walker votes nay.
    Mr. Smith.
    Mr. Smith. No.
    The Clerk. Mr. Smith votes no.
    Mr. Loudermilk.
    Mr. Loudermilk. Nay.
    The Clerk. Mr. Loudermilk votes nay.
    Mr. Brady.
    Mr. Brady. Aye.
    The Clerk. Mr. Brady votes aye.
    Ms. Lofgren.
    Ms. Lofgren. Yes.
    The Clerk. Ms. Lofgren votes yes.
    Mr. Raskin.
    Mr. Raskin. Aye.
    The Clerk. Mr. Raskin votes aye.
    Chairman Harper.
    The Chairman. Nay.
    The Clerk. Chairman Harper votes nay.
    The ayes, three; nays, six.
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
     
    The Chairman. The nays have it, and the amendment is not 
agreed to.
    Are there any other amendments?
    Seeing none, I move the Committee favorably report H.R. 
634. The question is on the motion.
    All those in favor, signify by saying aye.
    All those opposed, signify by saying nay.
    In the opinion of the Chair, the ayes have it, and the 
motion is agreed to.
    A recorded vote has been requested. So the clerk will call 
the roll.
    The Clerk. Mr. Davis.
    Mr. Davis. Aye.
    The Clerk. Mr. Davis votes aye.
    Mrs. Comstock.
    Mrs. Comstock. Aye.
    The Clerk. Mrs. Comstock votes aye.
    Mr. Walker.
    Mr. Walker. Aye.
    The Clerk. Mr. Walker votes aye.
    Mr. Smith.
    Mr. Smith. Aye.
    The Clerk. Mr. Smith votes aye.
    Mr. Loudermilk.
    Mr. Loudermilk. Aye.
    The Clerk. Mr. Loudermilk votes aye.
    Mr. Brady.
    Mr. Brady. No.
    The Clerk. Mr. Brady votes no.
    Ms. Lofgren.
    Ms. Lofgren. No.
    The Clerk. Ms. Lofgren votes no.
    Mr. Raskin.
    Mr. Raskin. No.
    The Clerk. Mr. Raskin votes no.
    Chairman Harper.
    The Chairman. Aye.
    The Clerk. Chairman Harper votes aye.
    The ayes, six; noes, three.
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

     
    The Chairman. The ayes have it, and the motion is agreed 
to.
    Without objection, the motion to reconsider is laid upon 
the table.
    Does any Member wish to submit supplemental or minority 
views?
    Mr. Brady. Mr. Chairman, I announce that the minority will 
request 2 additional days provided by the House rules to submit 
minority views.
    Mr. Chairman, I also ask unanimous consent for the letters 
of support for the EAC be entered into the record.
    [The information follows:]
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
    
    
    The Chairman. Pursuant to clause 2 of rule 11, that is 
without objection. Pursuant to clause 2 of rule 11, the member 
is entitled to 2 additional calendar days to file such views in 
writing and signed by the member and filed with the clerk of 
the Committee.
    And I will also ask unanimous consent to insert into the 
record a 2015 resolution from the National Association of 
Secretaries of State reaffirming resolutions from 2005 and 2010 
encouraging Congress not to reauthorize or fund the EAC.
    Without objection, that is entered into the record.
    [The information follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      The Chairman. I now call up and lay before the Committee 
H.R. 133.
    Without objection, the first reading is dispensed with, and 
the bill is considered read and open for amendment.
    [The bill follows:]
    
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
    
    The Chairman. Would any Member like to make a statement?
    Mr. Davis. Mr. Chairman.
    The Chairman. I will first recognize the Ranking Member, 
Mr. Brady, 5 minutes.
    Mr. Brady. Thank you, Mr. Chairman.
    Mr. Chairman, public finance has played a role in our 
Presidential election since 1976 when the PECF was first 
created in the wake of the Watergate scandal. The PECF allows 
taxpayers to voluntarily set aside $3 to contribute to the 
public financing of our elections. That is what the taxpayers 
wanted to do with $3. That was their clear intent.
    Over the past 40 years, Presidential candidates on both 
sides of the aisle have taken advantage of this funding. I know 
the recent candidates have not used this system, but that means 
the system needs to be improved, not repealed.
    My colleague Representative David Price of North Carolina 
has worked on this for years, and he has some very good ideas 
that the Committee should consider. Campaign finance reform is 
undoubtedly one of the most important and pressing issues we 
face. Outside groups spent nearly $1.5 billion to influence the 
2016 election. And the rise of anonymous unlimited corporate 
spending has made it increasingly difficult for individual 
citizens to have a voice in our elections. This is not the time 
to terminate the only public financing system at the Federal 
level, but it is the absolutely right time to make it better.
    Thank you, Mr. Chairman.
    The Chairman. Any other Members wish to be heard?
    I now recognize Mr. Davis for 5 minutes.
    Mr. Davis. Thank you, Chairman Harper.
    I want to thank you for bringing this important piece of 
legislation to our attention. As history has shown us, since 
2008, participation by the candidates running for President has 
gone down. And as a matter of fact, every 2016 candidate for 
President--every major candidate shied away from using public 
funds, so much so we have a balance of $317 million sitting in 
the Presidential Election Campaign Fund.
    And, Chairman Harper, your bill would take $63 million of 
that and put it toward fighting pediatric cancer. During my 
tenure as a Member of Congress, I am thrilled this Committee 
has found a way to better appropriate the resources of the 
dying Presidential Election Campaign Fund. The rest of the 
money would go to paying down the national debt. I got to tell 
you, Chairman Harper, you and I have worked together on these 
issues. And I was personally touched by the story of one of my 
constituents, Jonny Wade, a courageous 8-year-old from my 
district, who passed away tragically this past year from a rare 
form of brain cancer on Christmas Eve of 2015. I rallied other 
Members during the State of the Union to wear our Team Jonny 
bracelets to show support for funding more pediatric cancer 
research. And I have worked with my colleagues to push more 
funds through the appropriations process. In 80 percent of 
children, when cancer is detected, it has already spread to 
other parts of the body. And unlike many adult cancers that can 
be diagnosed early, pediatric cancers are more difficult to 
detect.
    New therapies going under clinical trials at the NIH, such 
as CAR T-cell therapy, where a patient's T-cells are removed 
and engineered to fight cancer cells, are showing promise. But 
we need to do more to make sure that these therapies can 
improve and have a widespread impact to save children like 
Jonny Wade. And research funding for NIH, including that for 
the Gabriella Miller Kids First Act, can do just that. I fully 
support this legislation and urge my colleagues on this 
Committee to vote yes on H.R. 13e.
    The Chairman. Thank you, Mr. Davis.
    Are there any other Members wishing to be heard on H.R. 
133, the bill eliminating the Presidential Election Campaign 
Fund?
    Mrs. Comstock. Yes, Mr. Chairman.
    The Chairman. Mrs. Comstock, you are recognized for 5 
minutes.
    Mrs. Comstock. Thank you, Mr. Chairman. I too appreciate 
your work that you have done on the Gabriella Miller Act. Mark 
and Ellyn Miller, Gabriella's parents, do live in my district. 
And so I appreciate that now that we have a situation where 
participation in this fund is--because exactly no major 
candidate of 2016--and that precedent was started in 2008--this 
is money that is sitting there that could be much better used 
for this purpose. And I appreciate the start that we made on 
this. And I think--in the past. And I think this additional 
money is very much needed and will be very much appreciated on 
this front. In terms of the outside spending increasing, I 
think that has really come as a result of campaign finance 
reform. So however we are going to deal with campaign finance 
reform--and I think we all have a lot of ideas on how to do 
that--this fund has died of its own, you know, lack of use. And 
it would be much better utilized for pediatric cancer. And, in 
fact, I might like to see more of that $317 million going 
toward that, but I could address that at another time. But I 
appreciate the work done here and support the measure.
    The Chairman. Thank you, Mrs. Comstock.
    Any other Members wishing to be heard on this?
    Would any Member like to offer an amendment?
    Seeing none, without objection, the amendment will be 
considered as read.
    Are there any other Members who wish to be recognized?
    Okay. So no amendment. So if not, I move that the Committee 
favorably report H.R. 133. The question is on the motion.
    All those in favor, signify by saying aye.
    All those opposed, signify by saying nay.
    In the opinion of the chair, the ayes have it, and the 
motion is agreed to. And--yes.
    Mr. Brady. Mr. Chairman.
    The Chairman. Mr. Brady.
    Mr. Brady. I ask that the minority will request 2 
additional days provided by the House rules to submit minority 
views.
    Mr. Chairman, I also ask unanimous consent----
    The Chairman. Mr. Brady, if I may interrupt. There is a 
request for a recorded vote. I apologize. My apologies.
    Okay. So a recorded vote has been requested. So the clerk 
will call the roll.
    The Clerk. Mr. Davis.
    Mr. Davis. Yes.
    The Clerk. Mr. Davis votes yes.
    Mrs. Comstock.
    Mrs. Comstock. Aye.
    The Clerk. Mrs. Comstock votes aye.
    Mr. Smith.
    Mr. Smith. Aye.
    The Clerk. Mr. Smith votes aye.
    Mr. Loudermilk.
    Mr. Loudermilk. Aye.
    The Clerk. Mr. Loudermilk votes aye.
    Mr. Brady.
    Mr. Brady. No.
    The Clerk. Mr. Brady votes no.
    Ms. Lofgren.
    Ms. Lofgren. No.
    The Clerk. Ms. Lofgren votes no.
    Mr. Raskin.
    Mr. Raskin. No.
    The Clerk. Mr. Raskin votes no.
    Chairman Harper.
    The Chairman. Aye.
    The Clerk. Chairman Harper votes aye.
    The ayes, five; noes, three.
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
    
    The Chairman. The ayes have it. The motion is agreed to.
    Mr. Brady.
    Mr. Brady. Thank you, Mr. Chairman.
    I announce that the minority will request 2 additional days 
provided by the House rules to submit minority views.
    Mr. Chairman, I also ask for unanimous consent for the 
letters of support for PECF to be entered into the record. 
Thank you.
    The Chairman. Without objection.
    [The information follows:]
    
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
       
    The Chairman. I now call up and lay before the Committee 
Committee Resolution 115-4, the Committee's Views and Estimates 
for Fiscal Year 2018.
    Without objection, the first reading is dispensed with and 
the resolution is considered read and open for amendment.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Would any Member like to make a statement?
    The Chairman.
    Would any Member like to offer an amendment?
    Without objection, if not, no amendments, I move the 
Committee favorably report Committee Resolution 115-4.
    The question is on the motion.
    All those in favor, signify by saying aye.
    All those opposed, signify by saying nay.
    In the opinion of the Chair, the ayes have it, and the 
motion is agreed to.
    Mr. Brady. Mr. Chairman.
    The Chairman. Yes, sir, Mr. Brady.
    Mr. Brady. I announce that the minority will request 2 
additional days provided by the House rules to submit minority 
views.
    The Chairman. Without objection.
    Without objection, the motion is considered laid upon the 
table.
    For all the matters considered here today, I would ask 
unanimous consent that the staff be authorized to make 
technical and conforming changes if necessary.
    Without objection, so ordered.
    That concludes today's markup.
    Without objection, the markup is adjourned.
    [Whereupon, at 12:29 p.m., the Committee was adjourned.]

                                  [all]
                                  
                                  
                                  
                                  
                                  
</pre></body></html>
